HHS/OIG, Audit - "Review of Pension Costs Claimed for Medicare
Reimbursement by Blue Cross Blue Shield of Wyoming for Fiscal Years 1986 Through
2007," (A-07-08-00263)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Pension Costs Claimed
for Medicare Reimbursement by Blue Cross Blue Shield of Wyoming for Fiscal Years
1986 Through 2007," (A-07-08-00263)
July 1, 2008
Complete Text of Report is available in PDF format (498 kb).
Copies can also be obtained by contacting the Office of Public Affairs at
202-619-1343.
EXECUTIVE SUMMARY:
Blue Cross Blue Shield of Wyoming (Wyoming), a Centers for
Medicare & Medicaid Services (CMS) contractor, underclaimed $41,000 of Medicare
pension costs on its Final Administrative Cost Proposals (FACP) for fiscal years
(FY) 1986 through 2007.  Wyoming
administered Medicare Part A operations under cost reimbursement contracts with
CMS until the contractual relationship was terminated October 31, 2006.
We recommended that Wyoming revise its FACPs for FYs 1986
through 2007 to claim the additional allowable Cost Accounting Standards (CAS)
pension costs of $41,000.  Wyoming concurred with our finding and stated that it
will revise its FACPs to claim the additional allowable CAS pension costs.